Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     PHYSICIAN-OWNED 

SPECIALTY HOSPITALS’ ABILITY 

    TO MANAGE MEDICAL 

       EMERGENCIES 





                    Daniel R. Levinson

                     Inspector General 


                      January 2008

                     OEI-02-06-00310

               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                      S U M M A R Y


                  OBJECTIVE
                  To assess physician-owned specialty hospitals’ ability to manage
                  medical emergencies.


                  BACKGROUND
                  Physician-owned specialty hospitals are hospitals that primarily
                  perform cardiac, orthopedic, or surgical procedures and are partially or
                  fully owned by physician investors. Two recent deaths of specialty
                  hospital patients have raised concerns about the ability of these
                  hospitals to manage medical emergencies. In both instances, a patient
                  experienced complications following elective surgery. Neither hospital
                  had a physician on duty at the time the emergency occurred, and both
                  hospitals called 9-1-1. The patients were then transferred to community
                  hospitals, where they were both pronounced dead.

                  All hospitals that participate in the Medicare program must
                  demonstrate to the Centers for Medicare & Medicaid Services (CMS)
                  their initial and ongoing ability to meet a set of health and safety
                  standards, referred to as the Conditions of Participation (CoP). The
                  CoPs require that all hospitals have a physician on duty or on call at all
                  times. Hospitals are also required to provide 24-hour nursing services,
                  furnished or supervised by a registered nurse. In addition, the CoPs
                  require that hospitals have written policies and procedures in place for
                  addressing individuals’ emergency care needs, regardless of whether the
                  hospital has an emergency department. Finally, according to CMS, a
                  hospital is not in compliance with the CoPs if it relies on 9-1-1 services
                  as a substitute for its own emergency services. However, there is no
                  specific Medicare prohibition on a hospital calling 9-1-1 to arrange for
                  the transfer of a patient to another hospital.

                  The Senate Finance Committee requested that the Office of Inspector
                  General (OIG) conduct an evaluation of patient care and safety in
                  physician-owned specialty hospitals. This study focuses on hospitals’
                  emergency departments, staffing patterns, and written policies for
                  managing medical emergencies. It is based on data from 109 physician-
                  owned specialty hospitals that we identified from a list provided by
                  CMS. CMS currently does not have a system in place to track
                  physician-owned specialty hospitals or to identify newly enrolled
                  physician-owned specialty hospitals.



OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   i
E X E C U T I V E                        S U            M M A R Y


                   The study relies on four primary sources of data: (1) a review of
                   physician and nurse staffing schedules for 8 sampled days, (2) a review
                   of hospitals’ staffing policies, (3) a review of hospitals’ policies for
                   managing medical emergencies, and (4) structured interviews with
                   administrators at each hospital.


                   FINDINGS
                   About half of all physician-owned specialty hospitals have
                   emergency departments, the majority of which have only one
                   emergency bed. Fifty-five percent of all physician-owned specialty
                   hospitals have an emergency department. More than half of these
                   hospitals have only one emergency bed. Another 17 percent of these
                   hospitals have between 2 and 5 emergency beds, 15 percent have
                   between 6 and 8 emergency beds, and 8 percent have 9 or 10 emergency
                   beds. Medicare does not require that hospitals have emergency
                   departments, but some States do have this requirement.

                   Not all physician-owned specialty hospitals had nurses on duty and
                   physicians on call during the 8 sampled days. Based on our review of
                   hospitals’ staffing schedules, 93 percent of physician-owned specialty
                   hospitals met these two requirements during our 8 sampled days. The
                   remaining 7 percent of hospitals did not meet these requirements.
                   Specifically, seven hospitals failed to have a registered nurse on duty
                   and one hospital failed to have a physician on call or on duty during at
                   least 1 of the 8 sampled days. Hospitals were least likely to meet these
                   staffing requirements on weekends.
                   Administrators report that less than one-third of physician-owned
                   specialty hospitals have physicians onsite at all times. According to
                   administrators, 28 percent of hospitals have a physician onsite 24 hours
                   a day, 7 days a week. Additionally, 45 percent of the hospitals with
                   emergency departments have a physician onsite at all times, compared
                   to 8 percent of the hospitals without emergency departments. Medicare
                   does not require that hospitals have physicians onsite at all times.
                   Two-thirds of physician-owned specialty hospitals use 9-1-1 as part
                   of their emergency response procedures. According to
                   administrators and our review of hospital policies, 66 percent of
                   hospitals instruct staff to call 9-1-1 as part of their medical emergency
                   response procedures. Most notably, 34 percent of hospitals use 9-1-1 to
                   obtain medical assistance to stabilize a patient, a practice that may



 OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   ii
E X E C U T I V E                        S U            M M A R Y


                   violate Medicare requirements. Almost half of all hospitals (46 percent)
                   use 9-1-1 to transfer patients, a practice that is permitted by Medicare.
                   Some physician-owned specialty hospitals lack basic information in
                   their written policies about managing medical emergencies. Almost
                   a quarter of all physician-owned specialty hospitals have policies that do
                   not address appraisal of emergencies, initial treatment of emergencies,
                   or referral and transfer of patients. In addition, some policies lack
                   certain information about managing medical emergencies, such as the
                   type of emergency response equipment to be used or the life-saving
                   protocols to be followed.


                   RECOMMENDATIONS
                   Based on these findings, we recommend that CMS take the following
                   actions to improve the ability of physician-owned specialty hospitals to
                   manage medical emergencies. We recognize that although the scope of
                   this study includes physician-owned specialty hospitals, some of the
                   recommendations apply to all hospitals. Specifically, we recommend
                   that CMS:

                   •	      Develop a system to identify and regularly track physician-owned
                           specialty hospitals.

                   •	      Ensure that hospitals meet the current Medicare CoPs that require
                           a registered nurse to be on duty 24 hours a day, 7 days a week and a
                           physician to be on call if one is not onsite.

                   •	      Ensure that hospitals have the capabilities to provide for the
                           appraisal and initial treatment of emergencies and that they are not
                           relying on 9-1-1 as a substitute for their own ability to provide these
                           services.

                   •	      Require hospitals to include necessary information in their written
                           policies for managing a medical emergency, such as the use of
                           emergency response equipment and the life-saving protocols to be
                           followed.

                   In addition to making these recommendations, we will forward to CMS
                   for appropriate action information on the 8 hospitals that did not meet
                   the two staffing CoPs reviewed in the study and the 37 hospitals that
                   use 9-1-1 to obtain medical assistance.




 OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   iii
E X E C U T I V E                            S U           M M A R Y 




                  AGENCY COMMENTS
                  CMS concurred with all four of our recommendations.

                  In response to our first recommendation, CMS stated that it will add
                  information to CMS’s provider enrollment form and the new Provider
                  Enrollment and Chain-Operated System.

                  In response to our second recommendation, CMS indicated that it
                  currently examines hospital compliance with all Medicare CoPs through
                  its routine hospital surveys. CMS does not conduct these surveys for
                  the 42 percent of hospitals that are accredited by either the Joint
                  Commission or the American Osteopathic Association. However, CMS
                  investigates all credible complaints, including complaints against
                  accredited hospitals. CMS stated that it will ensure that both
                  accreditation organizations are aware of our findings.

                  In response to our third recommendation, CMS stated that it issued a
                  program memorandum to State Survey Agencies during the period that
                  we were conducting the study that reiterates its requirements for
                  hospitals and addresses medical emergency requirements. CMS
                  circulated this memorandum to the national accreditation organizations
                  and made it available to the public through its Web site.

                  Finally, CMS concurred in principle with our fourth recommendation.
                  CMS stated that it will consider whether regulatory changes to create
                  more specific requirements for equipment and staff qualifications would
                  be appropriate.




OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   iv
Δ   T A B L E                      O F                   C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i




                  INTRODUCTION ........................................... 1




                  FINDINGS ................................................. 9

                              Half of all hospitals have emergency departments . . . . . . . . . . . . . 9 


                              Not all hospitals had nurses on duty and physicians on call 

                              during the 8 sampled days . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                              Less than one-third of administrators report having physicians 

                              onsite at all times . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                              Two-thirds of hospitals use 9-1-1 as part of their emergency

                              response. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                              Some hospitals lack basic information in their written policies . . 13 




                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                              Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                              A: 	Distribution of Physician-Owned Specialty 

                                  Hospitals, by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                              B:	 Number of Physician-Owned Specialty Hospitals That Have 

                                  an Emergency Department . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


                              C: 	Number of Registered Nurses on Duty . . . . . . . . . . . . . . . . . . . 19 


                              D: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 




                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 





OEI-02-06-00310         P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   v
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To assess physician-owned specialty hospitals’ ability to manage
                  medical emergencies.


                  BACKGROUND
                  Physician-owned specialty hospitals are hospitals that primarily
                  perform cardiac, orthopedic, or surgical procedures and are partially or
                  fully owned by physician investors.

                  There is an ongoing debate about the value of physician-owned specialty
                  hospitals. Proponents of these facilities state that by narrowing
                  services to a select group of procedures, specialty hospitals can deliver a
                  higher level of care to their patients, compared to that delivered by
                  community hospitals. Critics note that because these facilities are
                  physician-owned, they create incentives for physician owners to refer
                  their more profitable and healthier patients to their specialty hospitals.
                  They argue that this creates a financial problem for community
                  hospitals, by depriving them of an important revenue stream without
                  alleviating the burden of providing uncompensated care. They also
                  believe safety is an issue for specialty hospital patients, because they
                  are being treated in a facility that may be less prepared to handle
                  postoperative emergencies compared to a community hospital.1
                  Two recent deaths of specialty hospital patients have raised concerns
                  about the ability of physician-owned specialty hospitals to manage
                  medical emergencies. In both instances, a patient experienced
                  complications following elective surgery. Neither hospital had a
                  physician on duty at the time the emergency occurred, and both
                  hospitals called 9-1-1. The patients were then transferred to community
                  hospitals, where they were both pronounced dead.

                  The Senate Finance Committee requested that the Office of Inspector
                  General (OIG) conduct an evaluation of patient care and safety in
                  physician-owned specialty hospitals. This study focuses on hospitals’
                  emergency departments, staffing patterns, and written policies for
                  managing medical emergencies.


                      1 “Physician-Owned Specialty Hospitals: In the Interest of Patients or a Conflict of
                  Interest?” Hearing Before the Committee on Finance, United States Senate, 109th
                  Congress, First Session, March 8, 2005.



OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   1
I N T R O D        U C T              I O N


                    Medicare Enrollment of Physician-Owned Specialty Hospitals
                    Congress and the Centers for Medicare & Medicaid Services (CMS)
                    imposed several restrictions on physician-owned specialty hospitals
                    between 2003 and 2006. The Medicare Prescription Drug,
                    Improvement, and Modernization Act of 2003 (MMA) imposed a
                    temporary moratorium on new physician-owned specialty hospitals to
                    provide time to study the impact they have on patients, community
                    hospitals, and the Medicare and Medicaid programs.2 The moratorium
                    limited physician owners’ ability to refer patients to their own specialty
                    hospitals and specialty hospitals’ ability to bill any individual,
                    third-party payer, or other entity for these self-referrals. The
                    moratorium began on December 8, 2003; it expired on June 8, 2005.3
                    The day after the moratorium expired, CMS temporarily suspended the
                    Medicare enrollment of new physician-owned specialty hospitals
                    pending CMS review of the procedures used to qualify specialty
                    hospitals for participation in the Medicare program.4 Under section
                    5006(c) of the Deficit Reduction Act of 2005 (DRA), Congress continued
                    CMS’s suspension until the earlier of August 8, 2006, or the date that
                    the Department of Health and Human Services (HHS) could submit a
                    plan to address issues relating to physician ownership of specialty
                    hospitals.5 HHS submitted its plan to Congress on August 8, 2006,
                    thereby ending the suspension.6 The plan included action items for
                    HHS to undertake, such as reforming the payment system for inpatient
                    hospital services and ambulatory surgical centers and promoting
                    transparency of physician investments in hospitals.

                    Currently, the exact number of physician-owned specialty hospitals is
                    unknown. CMS compiled a list of 130 physician-owned specialty
                    hospitals for a study required by the MMA and for its plan to Congress.7


                       2 P.L. No. 108-173, ' 507(a) (2003) (codified at 42 U.S.C. '' 1395nn(d)(2), (d)(3), and
                    (h)(7)).
                      3 The moratorium did not apply to grandfathered specialty hospitals that met the
                    requirements of 42 U.S.C. § 1395nn(h)(7)(B).
                      4 CMS memorandum to State Survey Agency Directors, “Hospitals – Suspension of
                    Processing New Provider Enrollment Applications (CMS-855A) for Specialty Hospitals,”
                    S&C-05-35, June 9, 2005.
                        5 P.L. No. 109-171, ' 5006(c) (2006).
                        6 HHS, “Final Report to the Congress and Strategic and Implementing Plan Required
                    Under Section 5006 of the Deficit Reduction Act of 2005,” August 2006.
                      7 HHS, “Study of Physician-Owned Specialty Hospitals Required in Section 507(c)(2) of
                    the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,” 2005.



 OEI-02-06-00310    P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   2
I N T R O D        U C T              I O N


                    However, CMS does not have a system in place to identify newly
                    enrolled physician-owned specialty hospitals and does not track
                    hospitals that are no longer physician-owned specialty hospitals.
                    Regulations Governing the Management of Medical Emergencies
                    All hospitals that participate in the Medicare program must
                    demonstrate to CMS their initial and ongoing ability to meet a set of
                    health and safety standards, referred to as the Conditions of
                    Participation (CoPs). CoPs define the minimum standards for all
                    hospitals participating in the Medicare program.

                    Generally, the CoPs require that a physician be responsible for the care
                    of each Medicare patient with respect to any medical problem that is
                    present on admission or that develops during hospitalization.8 The
                    CoPs also require that all hospitals have a physician on duty or on call
                    at all times.9 Hospitals are also required to provide 24-hour nursing
                    services, furnished or supervised by a registered nurse.10
                    Hospitals must have written policies and procedures in place for
                    addressing individuals’ emergency care needs, regardless of whether the
                    hospitals have emergency departments.11 The CoPs require that if a
                    hospital has an emergency department, there must be adequate medical
                    and nursing personnel who are qualified to manage medical
                    emergencies and who are able to meet “the written emergency
                    procedures and needs anticipated by the facility.”12 The CoPs also
                    require that if a hospital does not have an emergency department, the
                    hospital must ensure that the medical staff have “written policies and
                    procedures for the appraisal of emergencies, initial treatment, and
                    referral when appropriate.”13 Finally, if the hospital has an emergency
                    department, but also has off-campus departments that do not have an
                    emergency department, such as imaging facilities or physical therapy
                    clinics, the hospital must ensure that the medical staff have “written
                    policies and procedures in effect with respect to the off-campus




                        8 42 CFR § 482.12(c)(4)(i). 

                        9 42 CFR § 482.12(c)(3). 

                        10 42 CFR § 482.23(b)(1). 

                        11 CMS memorandum to State Survey Agency Directors, “Provision of Emergency

                    Services - Important Requirements for Hospitals,” S&C-07-19 (April 26, 2007).
                        12 42 CFR §482.55(b)(2).
                        13 42 CFR § 482.12(f)(2).




 OEI-02-06-00310    P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   3
I N T R O D        U C T              I O N


                    department(s) for appraisal of emergencies and referral when
                    appropriate.”14
                    In addition, in April 2007, CMS issued a program memorandum to State
                    Survey Agency Directors addressing specific requirements for the
                    management of medical emergencies.15 In this memorandum, CMS
                    clarified the use of 9-1-1, stating that: “A hospital is not in compliance
                    with the Medicare CoPs if it relies on 9-1-1 services as a substitute for
                    the hospital’s own ability to provide services otherwise required in the
                    CoPs. This means, among other things, that a hospital may not rely on
                    9-1-1 services to provide appraisal or initial treatment of individuals in
                    lieu of its own capability to do so.” However, CMS notes that there is no
                    specific Medicare prohibition on a hospital calling 9-1-1 to arrange for
                    the transfer of a patient to another hospital.

                    In August 2007, CMS adopted a final rule requiring hospitals to
                    inform all patients in writing, at the beginning of their hospital stay
                    or outpatient visit, if a physician is not present in the hospital
                    24 hours a day, 7 days a week. The hospital must also inform
                    patients how the hospital would meet the medical needs of any
                    patient who develops an emergency medical condition when no
                    physician is present.16
                    Prior Studies
                    In 2006, the Government Accountability Office (GAO) examined
                    community hospitals’ competitive response to physician-owned specialty
                    hospitals in their market areas.17 It found that community hospitals in
                    markets with and without specialty hospitals did not differ
                    substantially in the changes they made to their operations and clinical
                    services.

                    As mandated by the MMA, the Medicare Payment Advisory Commission
                    (MedPAC) and the Secretary of HHS also conducted studies on
                    physician-owned specialty hospitals. MedPAC looked at the financial



                        14 42 CFR § 482.12(f)(3).
                        15 CMS memorandum to State Survey Agency Directors, “Provision of Emergency
                    Services - Important Requirements for Hospitals,” S&C-07-19 (April 26, 2007).
                        16 Medicare Program, Changes to the Hospital Inpatient Prospective Payment Systems
                    and Fiscal Year 2008 Rates, 72 FR 47130, 47413 (August 22, 2007) (to be codified at
                    42 CFR § 489.20(v)).
                      17 GAO, “General Hospitals: Operational and Clinical Changes Largely Unaffected by
                    Presence of Competing Specialty Hospitals,” GAO-06-520, April 2006.



 OEI-02-06-00310    P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   4
I N T R O D        U C T              I O N


                    impact of specialty hospitals on full-service community hospitals.18
                    MedPAC found no statistically significant difference in the cost of
                    providing care to patients at physician-owned specialty hospitals,
                    compared to the cost at other area hospitals. However, it found that
                    physician-owned specialty hospitals were less likely to treat Medicaid
                    patients than community hospitals in the same areas and that
                    physician-owned specialty hospitals tended to treat healthier patients.

                    HHS reviewed patterns of physician referral to specialty hospitals, as
                    well as quality of care and patient satisfaction at these hospitals.19 It
                    found that physician owners did not exhibit clear and consistent
                    patterns of hospital preference in their referrals, compared to physicians
                    with no hospital ownership. However, similar to the MedPAC study,
                    HHS found that cardiac hospitals treated healthier patients than
                    community hospitals in the same geographic area. HHS also found
                    indications that patients at specialty hospitals receive a high quality of
                    care, similar to that received by patients at competitor hospitals.
                    Additionally, it found that patient satisfaction was very high in
                    specialty hospitals and high in competitor community hospitals.


                    METHODOLOGY
                    Scope
                    This study assesses physician-owned specialty hospitals’ ability to
                    manage medical emergencies. It focuses on hospitals’ emergency
                    departments, staffing patterns, and written policies for managing
                    medical emergencies.

                    This study is based on data from 109 physician-owned specialty
                    hospitals that we identified from a list provided by CMS. The study
                    relies on four primary sources of data: (1) a review of physician and
                    nurse staffing schedules for 8 sampled days, (2) a review of hospitals’
                    staffing policies, (3) a review of hospitals’ policies for managing medical
                    emergencies, and (4) structured interviews with administrators at each
                    hospital.




                        18 MedPAC, “Physician-Owned Specialty Hospitals,” March 2005.
                        19 HHS, “Study of Physician-Owned Specialty Hospitals Required in Section 507(c)(2) of
                    the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,” 2005.



 OEI-02-06-00310    P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   5
I N T R O D        U C T              I O N


                    Identification of Physician-Owned Specialty Hospitals
                    For the purposes of its MMA-mandated study, CMS defined a
                    “physician-owned hospital” as a hospital that has at least one physician
                    owner. It defined a specialty hospital as a “surgical” hospital if at least
                    45 percent of Medicare discharges involve a surgical procedure. It
                    defined a specialty hospital as “cardiac” or “orthopedic” if at least
                    45 percent of its Medicare discharges are classified under the Medical
                    Diagnostic Categories for cardiac or orthopedic conditions. Cardiac
                    hospitals must also have at least five major heart surgery discharges a
                    year; orthopedic hospitals must have at least five major orthopedic
                    surgery discharges a year.20
                    Currently, CMS does not have a system to identify all physician-owned
                    specialty hospitals. It originally compiled a list for the MMA study and
                    added to the list for the plan that HHS submitted to Congress as
                    required by the DRA.21 The list included a total of 130 physician-owned
                    specialty hospitals. CMS surveyed the hospitals it identified, but did
                    not fully verify that all of them were physician-owned specialty
                    hospitals because some of the hospitals did not respond to the survey.

                    Between December 2006 and March 2007, we contacted each hospital on
                    the list to verify whether it currently met CMS’s definition of physician-
                    owned specialty hospital. We verified that a total of 109 of the
                    130 hospitals met this definition. Of the 21 remaining hospitals,
                    14 were not physician owned; 3 hospitals no longer met CMS’s definition
                    of a cardiac, orthopedic, or surgical specialty hospital; 3 hospitals were
                    terminated by CMS in 2006 and 2007; and 1 hospital was converted to a
                    critical access hospital in 2004.

                    The remaining 109 hospitals that met CMS’s definition have the
                    following characteristics: 66 hospitals are surgical hospitals, 23 are
                    orthopedic hospitals, and 20 are cardiac hospitals. They are located in a
                    total of 20 States. The five States with the highest concentration of
                    these hospitals are Texas (33 hospitals), Louisiana (15 hospitals),
                    Oklahoma (9 hospitals), Kansas (9 hospitals), and South Dakota
                    (8 hospitals). Appendix A provides a map of the distribution of these
                    hospitals. In addition, 42 percent of the hospitals were accredited by


                      20 HHS, “Study of Physician-Owned Specialty Hospitals Required in Section 507(c)(2) of
                    the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,” 2005.
                      21 HHS, “Final Report to the Congress and Strategic and Implementing Plan Required
                    Under Section 5006 of the Deficit Reduction Act of 2005,” August 2006: Appendix I.



 OEI-02-06-00310    P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   6
I N T R O D        U C T              I O N


                    the Joint Commission and the American Osteopathic Association as of
                    2006.22
                    Review of Staffing Schedules
                    We collected and reviewed staffing schedules from each of the
                    109 specialty hospitals for 8 sampled days. We selected a sample of
                    8 days between July 1, 2006, and December 31, 2006, using a two-stage
                    sampling method. First, we divided all the days during our study
                    timeframe into eight strata representing each of the 7 days of the week,
                    plus one stratum for holidays. Second, we randomly selected 1 day from
                    each stratum. Our findings based on these data are limited to the
                    sampled days.
                    For the 8 sampled days, we requested and received the staffing
                    schedules of the physicians and nurses who were on duty or on call for
                    each unit of the main hospital and for each off-campus department or
                    satellite office operated by the hospital, if applicable. We reviewed the
                    staffing schedules for the 8 sampled days from each of the 109 hospitals.
                    We identified any instances when a hospital did not meet the Medicare
                    staffing CoPs that require at least one physician to be on duty or on call
                    at all times and at least one registered nurse to be on duty at all times.
                    We also reviewed the number of nurses per shift in the inpatient unit
                    for a randomly selected weekday and weekend day from our 8 sampled
                    days.
                    Review of Hospital Staffing and Emergency Management Policies
                    We collected and reviewed each hospital’s staffing policies. We received
                    these policies from all but two hospitals.23 In reviewing these
                    documents, we specifically looked for how hospitals determine the
                    number of staff who are on duty for different shifts and whether they
                    designate a certain response time for on-call staff.

                    We also collected and reviewed each hospital’s policies for managing
                    medical emergencies. We received these policies from all 109 hospitals.
                    We also requested any documents that the hospital provides to patients
                    describing their emergency care policies and procedures. In reviewing
                    these documents, we specifically looked for how the hospital instructs
                    staff to respond to medical emergencies, the procedures that should be

                      22 The Joint Commission and the Healthcare Facilities Accreditation Program of the
                    American Osteopathic Association are two accrediting organizations that have deeming
                    authority to certify hospitals as meeting Medicare requirements.
                        23 Two hospitals did not submit staffing policies.




 OEI-02-06-00310    P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   7
I N T R O D        U C T              I O N


                    followed, and any guidance about the transfer of patients to other
                    hospitals.
                    Interviews With Hospital Administrators
                    We conducted structured telephone interviews with the hospital
                    administrator at each of the 109 hospitals. In some instances, other
                    staff, such as the medical director, director of nursing, or risk manager,
                    were present at the interview. We asked each administrator about
                    procedures for the management of medical emergencies at their hospital
                    and at any off-campus departments. In addition, we discussed staffing
                    patterns for their inpatient, outpatient, and emergency departments, if
                    applicable. We conducted these interviews between January and March
                    2007.
                    Limitations
                    We based this study on 109 physician-owned specialty hospitals that we
                    identified from a list of 130 hospitals that CMS updated in 2006. This
                    list may not have included all physician-owned specialty hospitals. In
                    addition, the 109 hospitals that we verified do not include any
                    physician-owned specialty hospitals that may have enrolled in Medicare
                    since the suspension ended in August 2006. The information from our
                    interviews with the hospital administrators is self-reported; we did not
                    independently verify their responses. Also, we did not collect
                    information from other short-term acute care hospitals and therefore
                    cannot make relevant comparisons.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-02-06-00310    P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   8
          Δ         F I N D I N G S




           About half of all physician-owned specialty               Fifty-five percent of all physician-
             hospitals have emergency departments,                   owned specialty hospitals have an
                                                                     emergency department. There is
                  the majority of which have only one
                                                                     no Federal requirement that all
                                        emergency bed
                                                                     hospitals have emergency
                               departments, but some States do require emergency departments in
                               hospitals. As shown in Chart 1, many of these emergency departments
                               are relatively small. More than half of hospitals with emergency
                               departments have only one emergency bed. Another 17 percent of these
                               hospitals have between 2 and 5 emergency beds, 15 percent have
                               between 6 and 8 emergency beds, and 8 percent have 9 or 10 emergency
                               beds. According to administrators, the hours of operation for all of these
                               emergency departments are 24 hours a day, 7 days a week.


                    CHART 1:                                                             70%
   Physician-Owned Specialty
                                                Percentage of Hospitals With Emergency




   Hospitals With Emergency                                                              60%   58%
Departments by the Number of
      Emergency Beds (N=60)                                                              50%
                                                              Departments




                                                                                         40%

                                                                                         30%

                                                                                         20%         17%
                                                                                                                            15%
                                                                                                                                                     8%
                                                                                         10%
                                                                                                                                                                      2%
                                                                                         0%
                                                                                                1    2 to 5                6 to 8                 9 to 10            Other*
                                                                                                        Number of Emergency Beds

                                       * One hospital with an emergency department shares the emergency beds of an adjacent hospital.

                                       Source: OIG analysis of interview data, 2007.




                               Among physician-owned specialty hospitals, cardiac hospitals are twice
                               as likely as orthopedic and surgical hospitals to have an emergency
                               department. Ninety percent of cardiac hospitals have an emergency
                               department, compared to 48 percent of orthopedic hospitals and
                               47 percent of surgical hospitals. See Appendix B for the number of each
                               type of hospital that has an emergency department. Cardiac hospitals
                               have a median of seven beds in their emergency departments, compared

          OEI-02-06-00310      P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S            9
 F   I N D I N G         S


                       to a median of one bed for surgical and orthopedic hospitals. In
                       addition, 72 percent of the hospitals with emergency departments are
                       located in three States that require hospitals to have emergency
                       departments.24 Seventy-six percent of these hospitals have only one bed
                       in their emergency department.

                       Several administrators at hospitals without emergency departments
                       note that as a safety precaution, their hospital will not admit patients
                       with certain conditions. They explain that they will not admit patients
                       needing intensive care or a higher level of care than the hospital can
                       provide. Additionally, 13 administrators at hospitals without
                       emergency departments report that they are located adjacent to or
                       across from or are connected to a hospital with an emergency
                       department.

Not all physician-owned specialty hospitals had               The Medicare CoPs state that
                                                              hospitals must have, at a
  nurses on duty and physicians on call during
                                                              minimum, a registered nurse on
                           the 8 sampled days
                                                              duty 24 hours a day, 7 days a
                       week, and a physician on call if one is not on duty at the hospital.25
                       Based on our review of hospitals’ staffing schedules, 93 percent of
                       physician-owned specialty hospitals met these two requirements for our
                       8 sampled days. The remaining 7 percent of hospitals did not meet
                       these requirements.

                       Specifically, seven hospitals failed to have a registered nurse on duty
                       and one hospital failed to have a physician on call or on duty during at
                       least 1 of the 8 sampled days. Most notably, three hospitals did not
                       have a registered nurse on duty for any shift during 1 of the sampled
                       days. Another hospital did not have a registered nurse on duty for any
                       shift during 3 of the sampled days, as well as for the night shift on a
                       4th day. Hospitals were least likely to meet these staffing requirements
                       on weekends.

                       Most physician-owned specialty hospitals (60 percent) have policies that
                       specify coverage requirements for physicians on call. Many of these
                       policies state that physicians must be on call around the clock.
                       Forty-two percent of the hospitals with on-call policies require specific

                         24 These States are Texas, Oklahoma, and Colorado. See 25 Tex. Admin.
                       Code ' 133.41(e); Okla. Admin. Code ' 310:667-49-9; and 6 Colo. Code Regs. ' 1011-1,
                       Chapter IV, para. 11.1.
                           25 42 CFR § 482.23(b)(1); 42 CFR § 482.12(c)(3).




     OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   10
 F   I N D I N G         S


                       response times; these policies typically state that on-call physicians
                       need to respond within 30 minutes.

                       Almost all of the hospitals have policies governing nurse staffing
                       requirements. These policies commonly set certain nurse-to-patient
                       ratios, factor into account patients’ needs, and/or set a minimum
                       number of nurses that a hospital is required to have on duty.

                       In addition, according to our review of hospitals’ staffing schedules,
                       hospitals typically have between one and three registered nurses on
                       duty per shift in their inpatient units. During the day, they have a
                       median of three registered nurses during the week and during the
                       weekend, they have a median of two registered nurses.26 At night, they
                       have a median of two registered nurses on duty during both the week
                       and the weekend. See Appendix C for the number of registered nurses
                       on duty in the inpatient units during the day and night.

                       According to our review of 8 sampled days, the patient census for the
                       hospitals varied greatly depending upon whether it was a weekday,
                       weekend, or holiday. The median number of patients ranged from four
                       to nine during the week and from one to two patients during the
                       weekend. During the holiday, the median number of patients was two.
                       Most hospitals had patients during the week; however, 46 percent of
                       hospitals did not have any patients during one of the weekend days, and
                       25 percent did not have any patients during the holiday.
                                                             According to information provided
Administrators report that less than one-third of
                                                             by administrators, 28 percent of
     physician-owned specialty hospitals have                physician-owned specialty
                  physicians onsite at all times             hospitals have a physician onsite
                                                             24 hours a day, 7 days a week.
                       Medicare does not require that hospitals have physicians onsite at all
                       times. Administrators at hospitals that do not have a physician onsite
                       at all times commonly explain that their hospital does not employ
                       physicians directly. Physicians typically have privileges at the hospital
                       and are generally on duty during business hours to perform surgeries
                       and/or check on their patients, but the hospital does not manage the
                       physicians’ schedules.27


                          26 This analysis is based on a randomly selected weekday and weekend day from our
                       8 sampled days.
                           27 According to the hospitals’ policies, business hours typically include daytime hours.




     OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   11
F   I N D I N G         S


                      Additionally, not all physician-owned specialty hospitals with
                      emergency departments have a physician onsite at all times. According
                      to administrators, 45 percent of the hospitals with emergency
                      departments have a physician onsite at all times, compared to 8 percent
                      of the hospitals without emergency departments. Cardiac hospitals are
                      more likely than orthopedic and surgical hospitals to have a physician
                      present around the clock. Ninety-five percent of cardiac hospitals have
                      a physician onsite at all times, compared to 17 percent of orthopedic
                      hospitals and 12 percent of surgical hospitals.

                      Administrators report that hospitals with emergency departments that
                      do not have a physician on duty at all times use on-call physicians to
                      staff their emergency department. As one administrator stated, her
                      hospital does not have a dedicated physician for the emergency
                      department; if an emergency occurs, staff would need to call in the
                      appropriate physician.
                                                             Based on information provided by
    Two-thirds of physician-owned specialty
                                                             administrators and our review of
hospitals use 9-1-1 as part of their emergency               hospital policies, 66 percent of
                         response procedures                 physician-owned hospitals
                                                             instruct staff to call 9-1-1 as part
                      of their medical emergency response procedures; however, hospitals
                      differ in their usage of 9-1-1. See Chart 2 on the next page.

                      About one-third of physician-owned specialty hospitals (34 percent) use
                      9-1-1 to obtain medical assistance to stabilize a patient. As noted
                      earlier, a hospital is not in compliance with Medicare CoPs if it relies on
                      9-1-1 services to provide appraisal or initial treatment in lieu of its own
                      capabilities. For example, one hospital’s emergency policy states, “9-1-1
                      will be called to the scene to attempt resuscitation.” Another hospital
                      has a policy that states, “After hours, call 911 for a Code Blue. Upon
                      arrival, [county] EMS will assume responsibility for the patient.”
                      Additionally, another hospital’s policy states, “If conditions are such
                      that staff should require additional assistance, 911 will be contacted.”

                      Almost half (46 percent) of physician-owned specialty hospitals use
                      9-1-1 to transfer patients to other hospitals. Medicare CoPs do not
                      prohibit using 9-1-1 for transfers. One administrator reports that it is a
                      city requirement to use 9-1-1 for transfers because there are no other
                      ambulance services available.
                      For 6 percent of physician-owned specialty hospitals, it is not clear to
                      what extent staff rely on 9-1-1 services. In these cases, the hospitals’

    OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   12
   F   I N D I N G           S           



                           emergency response procedures typically state that staff should call
                           9-1-1 but the policies do not indicate whether it is for medical assistance
                           or patient transfer.



               CHART 2:
          Percentage of
              Hospitals,
         by 9-1-1 Usage                              Use 9-1-1- for
                                                      both medical                                                           Use 9-1-1 for
                                                     assistance and                                                            transfers
                                                        transfers                                                                 27%
                                                           19%


                                                                                                                                        Use 9-1-1 for
                                                                                                                                          medical
                                                                                                                                         assistance
                                                                                                                                            15%


                                                                     9-1-1 not
                                                                                                                         Use 9-1-1 but
                                                                     mentioned
                                                                                                                         extent unclear
                                                                       34%
                                                                                                                              6%



                               Note: Percentages do not total 100 because of rounding.

                               Source: OIG analysis of interview data and hospitals’ policies, 2007.




                           Orthopedic and surgical hospitals are more than twice as likely to
                           include 9-1-1 as part of their medical emergency response procedures
                           compared to cardiac hospitals. In addition, hospitals that do not have
                           emergency departments and hospitals that do not have physicians on
                           duty around the clock are more likely to use 9-1-1 as part of their
                           emergency response procedures.
                                                            All physician-owned specialty
Some physician-owned specialty hospitals lack
                                                            hospitals have written policies
basic information in their written policies about
                                                            governing the management of
               managing medical emergencies                 medical emergencies. However, some
                                                            hospitals’ policies lack basic
                           information about how they would manage such emergencies.

                           Most physician-owned specialty hospitals have policies that address the
                           appraisal of emergencies, initial treatment of emergencies, and the
                           referral and transfer of patients. Such policies may identify which staff
                           should respond to an emergency to appraise a patient’s condition or may


       OEI-02-06-00310     P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   13
F 	I N D I N G       S


                   contain detailed procedures for using life-support equipment. However,
                   almost a quarter of physician-owned specialty hospitals (22 percent)
                   have policies that do not address appraisal of emergencies, initial
                   treatment of emergencies, or referral and transfer of patients.

                   Moreover, some of the policies for the 109 hospitals lack certain
                   information about managing medical emergencies. Specifically:
                   •	       Twenty-four percent of hospitals do not have policies that mention
                            the use of emergency response equipment, such as defibrillators.
                   •	       Twenty-one percent of hospitals in which administrators do not
                            report having a physician on duty at all times do not have policies
                            that provide guidelines for managing medical emergencies when a
                            physician is not on duty.
                   •	       Fifteen percent of hospitals do not have policies that mention the
                            use of cardiopulmonary resuscitation or Advanced Cardiac Life
                            Support (ACLS) protocols.28
                   •	       Six percent of hospitals do not have policies that indicate who
                            should respond to medical emergencies.

                   In addition, 2 of the 10 hospitals with off-campus departments do not
                   have emergency policies that apply to these departments. One hospital
                   does not have a policy. The other hospital has a policy for its main
                   campus, but the policy is not applicable to its off-campus department
                   because it does not take into account the absence of physicians and
                   nurses at the off-campus department.




                        28 The ACLS refers to a set of medical interventions used to treat people experiencing
                   respiratory and/or cardiac emergencies and stroke, including invasive techniques, such as
                   intubation and administration of drugs. Available online at
                   http://www.americanheart.org/presenter.jhtml?identifier=3012127. Accessed July 18, 2007.
                        .



 OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   14
Δ      R E C O M M E N D A T I O N S


                  Our findings raise some concerns about physician-owned specialty
                  hospitals’ ability to manage medical emergencies. During the 8 sampled
                  days we reviewed, not all physician-owned specialty hospitals met the
                  Medicare CoP requirements to have a registered nurse on duty at all
                  times and a physician on call if one is not onsite at all times. Over
                  one-third of physician-owned specialty hospitals also rely on 9-1-1 to
                  provide medical assistance, and some hospitals lack basic information in
                  their written policies about how to manage medical emergencies. In
                  addition, CMS does not have a system to identify or track the number of
                  physician-owned specialty hospitals.
                  Based on these findings, we recommend that CMS take the following
                  actions to improve the ability of physician-owned specialty hospitals to
                  manage medical emergencies. We recognize that although the scope of
                  this study includes physician-owned specialty hospitals, some of the
                  recommendations apply to all hospitals. Specifically, we recommend
                  that CMS:

                  •	      Develop a system to identify and regularly track physician-owned
                          specialty hospitals.

                  •	      Ensure that hospitals meet the current Medicare CoPs that require
                          a registered nurse to be on duty 24 hours a day, 7 days a week, and
                          a physician to be on call if one is not onsite.

                  •	      Ensure that hospitals have the capabilities to provide for the
                          appraisal and initial treatment of emergencies and that they are not
                          relying on 9-1-1 as a substitute for their own ability to provide these
                          services.

                  •	      Require hospitals to include necessary information in their written
                          policies for managing a medical emergency, such as the use of
                          emergency response equipment and the life-saving protocols to be
                          followed.

                  In addition to making these recommendations, we will forward to CMS
                  for appropriate action information on the 8 hospitals that did not meet
                  the two staffing CoPs reviewed in the study and the 37 hospitals that
                  use 9-1-1 to obtain medical assistance.




OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   15
 R   E C O        M M E N D A T                                I O N                S           




                    AGENCY COMMENTS
                    CMS concurred with all four of our recommendations.

                    In response to our first recommendation, CMS stated that it will track
                    physician-owned specialty hospitals by adding information to CMS’s
                    provider enrollment form and the new Provider Enrollment and Chain-
                    Operated System.

                    In response to our second recommendation, CMS indicated that it
                    currently examines hospital compliance with all Medicare CoPs through
                    its unannounced initial certification and recertification hospital surveys.
                    CMS does not conduct these surveys for the 42 percent of hospitals that
                    are accredited by either the Joint Commission or the American
                    Osteopathic Association. However, CMS investigates all credible
                    complaints, including complaints against accredited hospitals. CMS
                    stated that it will ensure that both accreditation organizations are
                    aware of our findings.

                    In response to our third recommendation, CMS stated that it issued a
                    program memorandum to State Survey Agencies during the period that
                    we were conducting the study that reiterates its requirements for
                    hospitals and addresses medical emergency requirements. CMS
                    circulated this memorandum to the national accreditation organizations
                    and made it available to the public through its Web site.

                    Finally, CMS concurred in principle with our fourth recommendation.
                    CMS stated that it currently has the authority to require that hospitals
                    have policies and procedures addressing, at a minimum, assessment of a
                    medical emergency, initial treatment, and referral as appropriate. CMS
                    stated that it will consider whether regulatory changes to create more
                    specific requirements for equipment and staff qualifications would be
                    appropriate. Appendix D provides the full text of CMS’s comments.




OEI-02-06-00310     P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   16
Δ    A P P E N D I X ~ A




           Distribution of Physician-Owned Specialty Hospitals, by State*




                                  MT
                                   2
                   ID                                                                       WI
                    3                                     SD 8
                                                                                            2
                                                                                                                               PA 1
                                                           NE 3                                                   OH
             NV         UT                                                                               IN
              1                          CO                                                               3        4
      CA                 1
                                          1                     KS 9
       5
                                                                                                                                 NC 1
                        AZ             NM                           OK 9             AR
                         4              1                                             3

                                                               TX                     LA
                                                               33                     15




       *States that are shaded do not have any physician-owned specialty hospitals.

       Source: Office of Inspector General analysis of interview data, 2007.




OEI-02-06-00310          P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   17
Δ   A P P E N D I X ~ B




                                        Number of Physician-Owned Specialty Hospitals
                                            That Have an Emergency Department




                                 70

                                 60

                                 50
           Number of Hospitals




                                 40
                                                                                                                                        35
                                 30

                                 20                          2
                                                                                                 12
                                 10
                                                           18                                    11                                     31
                                 0
                                            Cardiac                           Orthopedic                              Surgical



                                        With Emergency Department                        Without Emergency Department


                                  Source: Office of Inspector General analysis of interview data, 2007.




     OEI-02-06-00310                          P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   18
Δ         A P P E N D I X ~ C


       Chart 1: Number of Registered Nurses on Duty in the Inpatient Units During the Day

                                                   60%
                                                                                                           51%
                       Percentage of Hospitals     50%
                                                                                                 40%
                                                   40%
                                                                                   31%
                                                   30%

                                                                                                                        19%                  20%
                                                   20%
                                                                           14%

                                                   10%                                                                                                              8%
                                                                                                                                                      6%                    5%
                                                               3%                                                               3%
                                                          0%
                                                   0%
                                                              0                    1                 2 to 3               4 to 5              6 to 10            More than
                                                                                                                                                                    10
                                                                                        Number of Registered Nurses

                                                                                                  Weekday               Weekend


       Source: Office of Inspector General analysis of hospitals’ staffing schedules, 2007.



       Chart 2: Number of Registered Nurses on Duty in the Inpatient Units During the Night

                                                   60%                                             56%


                                                   50%
                                                    45%
                         Percentage of Hospitals




                                                   40%                              36%

                                                   30%                      25%

                                                   20%

                                                                                                                                              10%
                                                   10%          6%                                                                                     5%
                                                                                                                          4% 4%                                      3% 3%
                                                          1%
                                                   0%
                                                              0                     1                2 to 3                4 to 5              6 to 10            More than
                                                                                                                                                                     10
                                                                                         Number of Registered Nurses

                                                                                                   Weekday               Weekend

         Source: Office of Inspector General analysis of hospitals’ staffing schedules, 2007.


OEI-02-06-00310                       P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S        19
  A   P   P E N D       I X             ~           A
 Δ           A P P E N D I X ~ D

Agency Comments




      OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   20
A   P   P E N D       I X             ~           D




    OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   21
A   P   P E N D       I X             ~           D




    OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   22
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Jodi Nudelman,
                  Regional Inspector General for Evaluation and Inspections in the
                  New York regional office, and Meredith Seife, Deputy Regional
                  Inspector General.

                  Judy Kellis served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the New York regional
                  office who contributed to this report include Lucia Fort and Iris Lin;
                  central office staff who contributed include Kevin Farber, Doris
                  Jackson, and Barbara Tedesco.




OEI-02-06-00310   P H Y S I C I A N - O W N E D S P E C I A LT Y H O S P I TA L S ’ A B I L I T Y T O M A N A G E M E D I C A L E M E R G E N C I E S   23
